U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                  U.S. Census Bureau

    Census 2010: Dress Rehearsal of
      Address Canvassing Revealed
          Persistent Deficiencies in
         Approach to Updating the
               Master Address File


                      Final Report No. OSE-18599
                                    October 2008




                  Office of Audit and Evaluation
                                    ...
                                  I v_\
                                          ~:"'..

                                                   UNITED STATES DEPARTMENT DF COMMERCE
                                  .  ..
                                                   Office of Inspector General
                                  \ ....."'.d I    Washington. D.C. 20230




10/17/2008




MEMORANDUM FOR:            Steve Murdock
                           Director
                           Census Bureau

                          ~C}~
FROM:                     Judith J. Gordon
                          Assistant Inspector General
                                For Audit and Evaluation

SUBJECT:                  Census 2010: Dress Rehearsal of Address Canvassing
                          Revealed Persistent Deficiencies in Approach to Updating
                          the Master Address File
                          Final Report No. OSE·18599

This is our final report on our review of the 2008 dress rehearsal test of the bureau's
planned address canvassing operation and the operation's impact on improving the
master address file (MAF).
Our review revealed that (1) millions of ungeocoded Postal Service addresses in the
MAF set the stage for missed housing units and increased workloads; (2) address
canvassing cannot be relied on to adequately update, delete, or add addresses for
certain types of housing units or residential communities, such as apartments and
trailer parks; and (3) the bureau's modified quality control procedures may
compromise the results of the quality control operation.
As you know, the actual decennial canvassing operation, which is scheduled for
2009, is the bureau's last opportunity to significantly improve the MAF. Our
recommendations for improving the list take into account this limited time frame.
But looking ahead to the 2020 census, we urge the bureau to replace this seriously
limited operation with a decade-long, continuous improvement program.

We appreciate your response to the draft version of this report, and ask that you
provide an action plan within 60 calendar days that details how you will implement
our recommendations. We have addressed your response in summary at the end of
this report and have attached it in full as appendix B.

We appreciate the cooperation and courtesies your staff at headquarters and in the
field extended to us during our review. If you would like to discuss this report or the
action plan, please feel free to call me at (202) 482·2754.
cc: 	   Cynthia A. Glassman, Under Secretary for Economic Affairs
        Arnold Jackson, Associate Director for Decennial Census,
               U.S. Census Bureau
        Marilia A. Matos, Associate Director for Field Operations,
               U.S. Census Bureau
        Otto J. Wolff, Chief Financial Officer and Assistant Secretary for
               Administration, U.S. Department of Commerce
        Phyllis Van Tassel, Census Audit Liaison




                                         2
U.S. Department of Commerce                                              Final Report OSE-18599 

Office of Inspector General                                                        October 2008 



INTRODUCTION

To conduct the 2010 census, the Census Bureau will have to contact, via mail or in
person, an estimated 134 million housing units, and will rely on its master address
file (MAF) to do so. The MAF is intended to be a current, comprehensive list of
every address in the nation—whether occupied or vacant. It is a compilation of,
among other things, the bureau’s address list from Census 2000, U.S. Postal Service
data, and local government address information provided primarily through an
operation known as LUCA—Local Update of Census Addresses.

The bureau’s mechanism for collecting and tabulating decennial census data is to link (geocode)
MAF addresses to the bureau’s digital map known as TIGER (Topologically
Integrated Geographic Encoding and Referencing). A subset of the MAF is used to
create the list of addresses for living quarters to be included in decennial operations
and ultimately to count people where they live. Only geocoded addresses are sent to
the address canvassing operation, and only geocoded addresses receive census
questionnaires. Geocoding is how the bureau fulfills its mandate to count people in
the right location for purposes such as redistricting.

The bureau conducts address canvassing to ensure the address list for the census is
as accurate as possible. Estimated to cost more than $500 million, this operation
entails verifying, updating, or deleting addresses; adding missing addresses;
updating streets on the TIGER maps; and geocoding every structure by assigning
Global Positioning System (GPS) coordinates. During this massive operation,
thousands of temporary decennial staff using handheld computers containing MAF
addresses and TIGER maps try to locate every place a person could live or stay and
ensure it is correctly recorded and geocoded.

Address canvassing for the upcoming decennial is scheduled for 2009. This is the
bureau’s final major operation for improving the MAF prior to conducting the
decennial.

An accurate list is fundamental to an accurate count. The bureau describes
“an accurate, comprehensive, and timely [address] list” as “one of the best predictors
of a successful census.” If the list is incomplete or inaccurate, people may be missed
or counted more than once. Errors in the MAF can also increase costs and the public
burden by requiring visits to nonexistent or duplicate locations in a subsequent
census operation known as nonresponse follow-up—the most costly operation in the
decennial census.

Duplicate addresses occurred so frequently in Census 2000 that the bureau
conducted an unplanned operation late in the census to identify them. It found that
6 million people may have been counted twice and it dropped 3.6 million of the
suspected duplicate addresses from the census count. The National Academy of


                                               3

U.S. Department of Commerce                                                           Final Report OSE-18599 

Office of Inspector General                                                                     October 2008 



Sciences cited post-decennial bureau studies that found a significant number of
people had been dropped erroneously, while others who should have been
eliminated were not. 1

To reduce such problems in 2010, the bureau has been conducting ongoing MAF
maintenance activities, including twice-yearly updates with Postal Service
addresses. It had planned to conduct a number of other MAF improvement
operations throughout the decade with the intent of reducing the scope of address
canvassing. Census reported that budget cuts prevented it from conducting the
research required to target areas for address canvassing prior to the decennial and
from performing all of its planned address list improvement activities. So as in
Census 2000, the bureau is depending on 100 percent address canvassing to correct
the MAF before it begins the 2010 population count.

We had evaluated activities to update the MAF and related maps during the 2006
census test of planned decennial operations and identified missing, duplicate, and
erroneous addresses in the list. During an actual census, these problems would
hinder the bureau’s ability to get a complete and accurate count. (Visit our Census
Reading Room to view our related reports.)

We assessed these activities again in the 2008 dress rehearsal—reviewing
information for 18,694 addresses from 125 assignment areas (100 randomly selected
by Census and another 25 that we observed during dress rehearsal address
canvassing). We evaluated the quality of the MAF for these areas before and after
address canvassing and found that many of the issues we noted in 2006 remain.
Although we cannot project an error rate to the overall MAF based on our sample,
the regularity with which these problems surfaced suggests they may be significant
and could reduce the accuracy of the count in 2010. Census believes other follow-up
operations will resolve some of these errors, but none will provide a comprehensive
review of—or fix for—the addresses to be used in the decennial. (See appendix A for
additional details about our objective.)

FINDINGS AND RECOMMENDATIONS

    I. 	 Ungeocoded Addresses and Incorrect Zip Codes in the MAF Set the
         Stage for Problems in Address Canvassing

Ungeocoded addresses. According to Census officials, the MAF contains some 6
million ungeocoded addresses. If an address is not geocoded, it is not on the list
given to address canvassers. The burden is then on canvassers to find and correctly
record the information for these addresses—a burden the canceled MAF-

1
  The 2000 Census: Counting Under Adversity, Constance F. Citro, Daniel L. Cork, and Janet L. Norwood (eds.),
Panel to Review the 2000 Census, National Research Council, The National Academies Press, 2004.


                                                       4

U.S. Department of Commerce                                      Final Report OSE-18599 

Office of Inspector General                                                October 2008 



improvement operations were intended to reduce. Census will not mail
questionnaires to any ungeocoded addresses that remain in the MAF after
canvassing, even though the Postal Service can deliver most of them. And
nonresponse follow-up enumerators only contact households that received but did
not return a questionnaire. Therefore, residents at these ungeocoded addresses are
unlikely to be counted.

Outdated ZIP codes. Several hundred addresses in our sample were duplicates
except for the ZIP code. Up-to-date addresses were added by a LUCA operation
conducted as part of dress rehearsal testing. But the updates were not recognized as
the same housing unit in the MAF because the ZIP codes were different, so the
LUCA addresses did not override the outdated entries. We brought this to the
attention of Census staff, who told us that for 2010, they will change the way LUCA
data is matched to the MAF with the objective of preventing duplicates.

II. 	 Address Canvassing Remains an Unreliable Approach for Improving
      the MAF

As in our earlier reviews, we found that address canvassing cannot be counted on to
reliably record the information needed to geocode the millions of ungeocoded
addresses in the MAF, identify and add missing units, or eliminate certain address
errors. The operation is especially challenged when dealing with (1) nontraditional
mailing addresses—for example, multiunit residences whose individual household
addresses do not conform to the typical street number and name format; (2)
“hidden” dwellings, such as sheds and makeshift garage apartments; and (3) trailer
parks that display both lot numbers corresponding to a unit’s physical space within
the park and unit numbers that are part of the mailing address. The following
examples from dress rehearsal canvassing illustrate some of the problems we
observed:

   •	 Entire apartment complex omitted from canvassing address list. A 352-unit
      apartment complex in our sample that was built after 2000 was in the MAF
      but not geocoded and was therefore not on the address list given to the
      employee assigned to canvass the area. The canvasser correctly added 346
      addresses, but mistakenly missed 6 apartment units and added 1 that did not
      exist. The 6 missed apartments therefore remain ungeocoded. If these
      omissions are not corrected during address canvassing for 2010, the units will
      not be mailed a census questionnaire, increasing the risk that their residents
      will not be counted. Likewise, the nonexistent unit will be added to the
      nonresponse follow-up workload. Occupants of housing units missed in the
      address canvassing operation for 2010 face an increased risk of not being
      counted.




                                         5

U.S. Department of Commerce                                                           Final Report OSE-18599 

Office of Inspector General                                                                     October 2008 



     •	 Certain ungeocoded mailing addresses not corrected in dress rehearsal will
       likely remain ungeocoded in 2010. The outcome of canvassing a 391-unit
       retirement community in our sample illustrates two possible problems that
       could diminish the accuracy of the 2010 count. Canvassing lists for the
       retirement community contained “location” addresses—street names and unit
       numbers (e.g., 3629 E. Adams Avenue)—which in this case do not correspond
       to the Postal Service mailing addresses. Instead the Postal Service uses the
       complex name and unit number, known as the “vanity” address (e.g., 3629
       ABC Apartments). 2 The vanity addresses exist in the MAF (as provided by
       Postal Service updates) but are not geocoded, or linked, to a specific block
       location, so they do not appear on canvassers’ lists.

       Unit numbers in this complex were displayed on each door. During dress
       rehearsal, some canvassers knocked on doors as instructed by Census’s
       address canvassing procedures to verify address information and learned that
       the mailing address contained the complex name rather than the street. They
       added this information for some units—now allowing the Postal Service
       addresses to geocode—but not for others. The first problem we note is that the
       remaining units may not receive Census questionnaires in 2010 if the Postal
       Service does not recognize the location address as a valid mailing address.

       The second problem is potentially more significant: we learned that
       canvassers for 2010 will collect mailing addresses only when housing unit
       numbers are not clearly displayed, which means that none of the addresses for
       complexes like the one above—that have visible unit numbers but use vanity
       addresses for mailing purposes—will be corrected. In addition, even if a
       canvasser should happen to learn that complexes with displayed unit
       numbers use vanity mailing addresses while the MAF contains only the
       location addresses, the bureau has made a software change to the handhelds
       that will prevent the canvasser from making the correction. Consequently,
       these complexes may not receive a questionnaire unless the bureau finds a
       way to identify ungeocoded valid Postal Service mailing addresses that exist
       in the MAF and match them to their corresponding house number and street
       name addresses. No one knows how many complexes/households fall into this
       category and therefore how many people might not receive questionnaires, but
       the impact will be an increased workload for the costly nonresponse follow-up
       operation.
     • Insufficient address information for “hidden” dwellings. Address canvassing is
       the primary means for identifying hidden living quarters. Yet we found that

2
 For most households, the location address is the mailing address. But some multiunit dwellings use so-called
vanity mailing addresses—identifying the individual units by the complex name rather than the street on which
the building resides. When the vanity address is the mailing address, the postal service will sometimes deliver
mail to the location address, but cannot always be counted on to do so.


                                                      6

U.S. Department of Commerce                                                 Final Report OSE-18599 

Office of Inspector General                                                           October 2008 



      almost 600 such units identified by dress rehearsal canvassers were not added
      to the master address file. Because canvassers did not sufficiently
      differentiate the hidden dwellings from the primary residence at the same
      location by placing a unique alpha or numeric identifier in the handheld’s
      “unit” field, the hidden units were considered duplicate addresses. Canvassers
      had correctly added location descriptions to the handhelds, such as
      “apartment above garage” or “trailer in the side yard.” But they left the unit
      field blank, so the record was rejected. The handheld contains no prompt to
      make it clear that the unit field must be completed for these types of
      dwellings; and clear instructions—both in training sessions and instructional
      manuals—are lacking. We briefed Census officials about this finding, and
      they are working with the handheld computer contractor to resolve the
      problem.
   •	 Trailer park lot numbers incorrectly recorded as unit numbers. We found 

       numerous trailer parks for which dress rehearsal canvassing lists contained 

       duplicate addresses as a result of a Census 2000 list error. Even though each 

       trailer had a unique house number and street name address, canvassers for 

       the 2000 decennial had incorrectly added lot numbers—which are not part of

       the mailing address—as “unit” numbers. Subsequent Postal Service and 

       LUCA updates added new MAF records with the 

       accurate addresses for these dwellings, but did not 

       override the erroneous entries generated in the 2000 
       I-b.Jse I:

       canvassing operation. Because the procedure for 
            Street:                             -I
       resolving duplicates was unclear, 2008 canvassers
           lKIit:
                                                                                                          1

       typically kept the erroneous address and deleted the 
       ZIP Co:le:      1lJ3C>12              1

       Postal Service one. We expect the same outcome from
                =­
                                                                    Descriptbn:         _ _8
       address canvassing for 2010, and future MAF update 

       operations will likely add the correct address 

       information again. To break this cycle, canvassers 

       must understand that the unit field is completed only 

       for dwellings that share the same house number and 

       street name address, but have unique identifiers for
        ( «Bad)( Cbse ) ( Next» )
       their individual units. All other location details belong 
 Figure 1. Handheld computer screen for
       in the location description field (figure 1). 
             adding an address


III. Modifications to the Quality Control Operation Have Not Been
     Thoroughly Evaluated

Modified procedures may compromise the operation’s results. Census has
tested and implemented a number of quality control improvements since 2000, most
important, making quality control independent of production. However, many
aspects of the quality control operation were new for the dress rehearsal, and
automation problems prevented the bureau from collecting sufficient data to fully
evaluate them. Nevertheless, these changes will be used in 2010.


                                                7

U.S. Department of Commerce                                       Final Report OSE-18599 

Office of Inspector General                                                 October 2008 




One key change is the procedure for handling assignment areas that fail the quality
check. In 2000, if an assignment area failed quality control, it was returned to
production staff to be recanvassed. For 2010, quality control staff does the check
and the recanvassing. These dual responsibilities may compromise the operation’s
results: quality control staff could choose to shortcut the recanvassing process and
therefore fail to make needed corrections or could identify nonexistent errors in
order to increase their work hours. This is not just a hypothetical risk; we observed
an instance of the former problem during dress rehearsal. Census should closely
monitor quality control pass/fail rates for assignment areas nationwide—taking
note of unusually high or low pass/fail results.

Quality control staff introduced errors. We found examples of quality control
staff reinstating addresses that had been correctly deleted by the canvasser and
incorrectly adding addresses to canvassers’ lists. In one example, 17 addresses
correctly verified by a canvasser in one block were added to an adjacent block
during quality control. So two sets of identical addresses now exist on the same
street. In 2000, geography matching operations in headquarters would have
attempted to recognize and eliminate the identical addresses from the second block.
But for 2010, Census has decided it must keep these duplicate addresses as valid
housing units to avoid missing a residence. The bureau informed us that if it
receives completed questionnaires from both, the addresses will not be identified as
duplicates since the housing units are in separate blocks. Such instances will result
in overcounting.

Bureau officials contend that once canvassing is over, they cannot determine which
address is in the correct block. We disagree. For the example above, we used county
geographic information system sites to confirm that the block as initially verified by
the address canvasser was correct. We also determined that the GPS coordinates for
the addresses added by quality control were in the middle of the road, not at the
physical location of actual dwellings. The bureau intends to track the frequency of
these errors during address canvassing for the 2010 census and will revisit the
issue, if warranted.

Recommendations

To improve the master address file for 2010, Census should do the following:
 1. Mail questionnaires to ungeocoded postal addresses, and geocode as many

     addresses as possible for forms returned from valid housing units. 

 2. Explore ways to identify ungeocoded vanity and other unique mailing

     addresses in the MAF, and link them to corresponding location addresses. 

 3. Enhance instructions and training to advise canvassers that
     a.	 the “unit” field must be completed for every individual dwelling within a
         multiunit residence—including hidden dwellings, and


                                          8

U.S. Department of Commerce                                      Final Report OSE-18599 

Office of Inspector General                                                October 2008 



    b. secondary identifying details—such as lot numbers in trailer parks—must
       be entered in the “location description” field.
 4. Closely monitor the level of quality control pass/fail rates nationwide to detect
    quality control staff that may be improperly passing or recanvassing
    assignment areas.
 5. Reexamine the decision to keep identical MAF addresses that occur in different
    blocks within the same street.

These recommendations are tailored to account for the decennial scheduling and
automation problems facing the bureau in preparing for the 2010 census. To
eliminate the recurring problems we have consistently identified and improve the
MAF for 2020, we further recommend that Census regularly update the file
throughout the decade in lieu of 100 percent address canvassing.

Bureau Response and OIG Comments


With respect to our first recommendation, Census officials stated that, while they
share our concern about ungeocoded addresses in the MAF, mailing to these
addresses increases the likelihood of duplication, which increases the risk of an
overcount. But we note that their current plan poses the risk for undercounting. We
believe the bureau can balance both risks with targeted mailings to specific groups
of ungeocoded addresses, such as those added after 2000, or to areas that are likely
to have a large number of these addresses, such as communities that experienced
rapid growth and were not covered by LUCA.

Officials agreed with the merit of recommendations 2 and 5, but stated that time
and resource constraints precluded them from conducting additional research.

Census concurred with recommendations 3(a) and 4. It did not concur with 3(b), but
we believe the bureau misinterpreted our example, so we have clarified our
meaning in the final draft and ask that the bureau address this recommendation in
its action plan.

Finally, the bureau agreed with our recommendation for the 2020 decennial—that it
regularly update the MAF throughout the decade in lieu of 100 percent address
canvassing—but said doing would so hinge on whether it obtains the necessary
funding. We urge Census to make this a top priority and take action early in the
decade to secure the needed funding.




                                         9

U.S. Department of Commerce                                       Final Report OSE-18599 

Office of Inspector General                                                 October 2008 



                APPENDIX A: OBJECTIVES, SCOPE, AND METHODOLOGY
 


We originally intended to assess how well address canvassers followed procedures
during the 2008 dress rehearsal and made corrections on the handheld computers.
We also planned to assess whether the operation’s redesigned quality control
component was effective. But problems with the handhelds forced Census to modify
its objectives for the dress rehearsal, and we in turn had to modify ours, focusing
primarily on the quality of the list. Because Census did not agree to provide
assignment area data to us electronically, we could not conduct various sorts,
searches, and other automated analyses. Consequently our findings are based on a
manual review of 1,000 printed pages containing nearly 19,000 addresses from the
North Carolina dress rehearsal site. We have raised concerns to the Department
and the Census Bureau about restrictions placed on OIG’s access to Title 13
information and are awaiting a final response from Census regarding our concerns.
We conducted this review from April 2007 to July 2008 in accordance with the
Quality Standards for Inspections (rev. January 2005) issued by the President’s
Council on Integrity and Efficiency, and under the authority of the IG Act of 1978,
as amended, and Department Organization Order 10-13 (dated August 31, 2006).




                                          10 

U.S. Department of Commerce                                                                                Final Report OSE-18599 

Office of Inspector General                                                                                          October 2008 



                                   APPENDIX B: CENSUS BUREAU’S RESPONSE
 





                                                                         UNITED STATES D£PART..IENT OF CO....ERCE
                                                                         Economics lind Sbtlstles Administration
                                                                         U.S. Census BuNalU
                                                                         W~,       OC 20233-0001
                                                                         OFFICE OF THE DIRECTOR




          OCT    0   1 2OIl8


         MEMORANDUM FOR                            Judilh 1. Gordon
                                                   Assistant Inspector General for Audit and Evaluation

         Through:                                  Cynthia A. Glassman  G¥J
                                                   Under Secretary for Economic Affairs

         From:                                     Steve H. Murdock
                                                   Director         •
                                                                     A£ldJ ~
         Subject:                                  Comments on Recommendations Within the Office of Inspector
                                                   General's Second Draft Report Entitled 2010 Decennial Census:
                                                   Dress Rehearsal ofAddress Canvassing Revealed Persistent
                                                   Deficiencies in Approach to Updating the Master Address File
                                                   (OSE-18559)


         The attached is in response to your request of October 1, 2008, for specific comments on the
         recommendations contained in the above-referenced report. We appreciate the opportunity to
         revi~w the report prior to publication.


         Attachment

         cc: USIEA




          USCENSUSBUREAU
          ........ u • ..... ,.'•••••   0."".. ,




                                                                        11 

U.S. Department of Commerce                                                                  Final Report OSE-18599 

Office of Inspector General                                                                            October 2008 





                                    u.s. Census Bureau Conunents on the
                            Second Draft Report No. OSE-18559/September 2008
              2010 Decennial Census: Dress Rehearsal ofAddress Canvassing Revealed Persistent
                        Deficiencies in Approach to Updating the Master Address File
                                              October 7, 2008


            General Comment

            The U.S. Census Bureau concurs with the Office ofbtspector General (OIG) as to the
            relative value of continuous updating and error correction as opposed to the end-of·the·
            decade national canvassing approach. We would welcome the OIG support for defending
            the budget necessary to implement a rigorous continual Master Address File updating
            program, supported by a strong research program next decade. Further, the Census
            Bureau shares the orG concerns about duplicates, misses, and Wlgcocodcd housing units
            and some of the operational risks facing us in Address Canvassing. Consequently, we are
            in the midst of developing and implementing a comprehensive Address Canvassing
            testing program, including an operational field test, as well as completing mitigation and
            contingency plans to address risks to the success of Address Canvassing and to census
            data quality. As testing and risk management activities unfold, we would welcome the
            OIG's input and support. We appreciate the recommendations you have made and would
            like to offer the following comments.

            OIG Recommendations

            To improve tlte Master Address File (MAP) for 2010. Census sltould do tlte/ollowing:

            Recommendation I. Mail questionnaires to ungeocoded postal addresses, and
            geocodc as many addresses as possible for forms returned from valid bouslng units.

            Census Bureau Comment: We recognize and share the concern regarding the
            ungeocoded addresses. We are examining options as contingencies for the event that a
            significant number of ungeocoded addresses remain after the completion of Address
            Canvassing. Your recommendation is being considered; however, mailing questionnaires
            to ungeocoded addresses will not result in the geocoding of those addresses. In fact,
            mailing to all ungeocoded addresses increases the likelihood of duplication in the census
            because we may not be able to determine for certain whether the addresses have already
            been added by Address Canvassing in a different form. Using the example in the repon,
            if Address Canvassing added 3629 East Adams Avenue, we would create duplicate
            records by adding ungeocoded postal addresses for 3629 ABC Apartments.

            Recommendation 2. Explore ways to identify ungeocoded vanity and other unique
            mailing addresses in the MAF, and link tbem to corresponding location addresses.




                                                         12 

U.S. Department of Commerce                                                                      Final Report OSE-18599 

Office of Inspector General                                                                                October 2008 





                                                                                                 2

            Census Bureau Comment: We concur that this issue warrants research. However,
            given the very limited time that remains prior to the start of the 2010 Census Address
            Canvassing operation and the focus of our resources on pr/;,l'aratory activities, this
            research is not feasible at this time.

            Recommendation 3. Enhance instructions and training 10 advise canvassers tbat-

            a. the "unit" field must he completed for every individual dwelling within a
            multiunit residence--including bidden dwellings, and

            Census Bureau Comment: We concur with this recommendation, bul with a caveat. A
            blank unit designation is considered unique from other non-blank unit designations.
            Therefore, there could be up to one blank unit designation per multiunit.

            b. secondary identifying details-sucb as lot numbcrs in trailer parks-must be
            entered in the "location description" ficld.

            Census Bureau Comment: We do not agree with this recommendation. There will be
            instances when identifying details, such as lot numbers in trailer parks, are necessary 10
            uniquely identify each address. Instructing listers that this infonnation must be entered in
            the "location description" field, rather than in the "unit designation" field, will result in
            dupiicate addresses during the MAF update process.

            We have uniqueness requirements in the Address Canvassing hand-held software. We
            require something different for every unit with the same basic street address, where
            "blank" is one of the possibilities. In addition, if a mobile home park has the same basic
            street address, then the software will require something different in each unit descriptor.
            Addresses that are not entered with this amount ofinfonnation will fail both our softw"are
            uniqueness requirement and our MAP update uniqueness requirement.

            Recommendation 4. Closely monitor tbe level of quality control pass/fail rates
            nationwide to detect quality control staff who may be improperly passing or
            recanvassing assignment areas.

            Census Bureau Comment: We concur with this recommendation.

            Recommendation 5. Reexamine the decision to kcep identical MAF addresses that
            occur in different blocks within the same street.

            Census Bureau Comment: Based on your recommendation, in July 2008. the Address
            List Consistency Group re-examined our decision to keep identical MAP addresses that
            occur in difTerent blocks. To detennine which block the address is located in would
            require additional research. We do not havc the resources necessary to implement a
            national scale research effon. within the time frame available between the completion of




                                                           13 

U.S. Department of Commerce                                                                    Final Report OSE-18599 

Office of Inspector General                                                                              October 2008 





                                                                                                3

            Address Canvassing (July 2009) to the start of Group Quarters Validation (September
            2009) and the production of the initial mail file. As a result, we decided to continue with
            our current approach due to concerns about undcr·covcragc. However, we do plan to
            lrdck the level of occurrence during Address Canvassing and, if warranted, will revisit
            this issue again.

            To eliminate the recurring problems we have comiistent/y identified and impro~'e the
            MA F for 2020, we further recommend that:

            Recommendation 6. Census [should] regularly update the file throughout tbe
            decade in lieu of1oo percent address canvassing.

            Census Bureau Comment: We concur with this recommendation. If funding will be
            available, we will conduct the research necessary to detennine if we could reduce the
            scope of Address Canvassing and improve the address list throughout the decade leading
            up to the 2020 Census.




                                                          14 

